OIG Investigative Reports, Former Bethune-Cookman College Employee Sentenced for Fraud
Skip to main contentAbout UsContact UsFAQs Language Assistance Englishespañol中文: 繁體版Việt-ngữ한국어TagalogРусский
U.S. Department of Education
Search for:
Toggle navigation
U.S. Department of Education
Student Loans
Grants
Laws
Data
About ED
OFFICES
Home
Reports & Resources
Programs/Initiatives
News
Office Contacts
Investigative Reports
FOR IMMEDIATE RELEASE:
Orlando, Florida April 30, 2001
Former Bethune-Cookman College Employee Sentenced for Fraud
Orlando, Florida - Today United States District Court Judge Patricia C. Fawcett sentenced King Ade Olowu, a former accountant employed by Bethune-Cookman College  in the Fiscal Affairs Office. Mr. Olowu was charged with stealing student financial aid  refund checks worth approximately $107,000 from December 1995 to December 1997  from the financial aid office at Bethune-Cookman, then having others cash the checks at  banks in the area of Daytona Beach.
The Court sentenced Olovu to fifteen months in prison, followed by three years of  supervised release, 75 hours of community service in lieu of a fine, and mandatory  restitution of $70,143.29.
Evidence presented to the Court demonstrated that Olowu, who graduated from Bethune-Cookman in 1984, had worked for 11 years in the student financial aid office at  Bethune-Cookman. Many studlents who received financial aid had left due to graduation,  transfer, or dropping out, and they were entitled to a refund of their unused aid. But the  school had failed to identify these students and send them their refunds, according to a  United States Department of Education audit conducted in 1995. Olowu was assigned the  job of getting refund checks out to these students. Instead, he stole many of the checks  and handed them off to his confederates, who cashed them at local banks. Olowu paid  his confederates $50 to $200 to cash a check, and they paid him the rest. The amounts  of the checks listed in the indictment returned against Olowu varied from $586 to $2000.
The case was investigated by the Daytona Beach Police Department, special agents of the United States Department of Education Office of Inspector General, and the United States Secret 5ervice. The case was prosecuted by Bruce S. Ambrose, Assistant United States Attorney in the Orlando Division of the Office of the United States Attorney, Middle District of Florida.
Top
Printable view
Share this page
Last Modified: 03/01/2005
How Do I Find...
Student loans, forgiveness
College accreditation
No Child Left Behind
FERPA
2015 Budget Proposal
FAFSA
More >
Information About...
Transforming Teaching
Family and Community Engagement
Early Learning
K-12 Reforms
More >
Connect
Facebook
Twitter
YouTube
Email
RSS
Google+
More >
MISUSED
FOIA
OIG Fraud Hotline
Our mission is to promote student achievement and preparation for global competitiveness by fostering educational excellence and ensuring equal access.
Student Loans
Repaying Loans
Defaulted Loans
Loan Forgiveness
Loan Servicers
Grants & Programs
Apply for Pell Grants
Grants Forecast
Open Grant Competitions
Find Grant Programs by Eligibility
Laws & Guidance
No Child Left Behind
IDEA
Civil Rights
Significant Guidance
Data & Research
Education Statistics
Integrated Postsecondary Education Data System
Nation's Report Card
What Works Clearinghouse
About Us
Contact Us
Jobs
News
FAQs
Budget, Performance
Notices FOIAPrivacySecurityInformation qualityInspector GeneralWhitehouse.govUSA.govBenefits.govRegulations.gov